No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES PATENT AND TRADEMARK OFFICE;
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR, UNITED
STATES PATENT AND TRADEMARK OFFICE, PETITIONERS
v.
BOOKING.COM B.V.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 5th day of July, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,299
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
July 5, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 5, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

UNITED STATES PATENT AND TRADEMARK OFFICE;
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR,
UNITED STATES PATENT AND TRADEMARK OFFICE
BOOKING.COM B.V.
EOIN CONNOLLY
FOLEY & LARDNER, LLP
3000 K STREEET, NW
SUITE 600
WASHINGTON, DC 20007-5143
202-672-5300
ECONNOLLY@FOLEY.COM
JONATHAN ELLIS MOSKIN
FOLEY & LARDNER, LLP
90 PARK AVENUE
NEW YORK, NY 10016
JMOSKIN@FOLEY.COM

